     Department of Homeland Security





                FEMA Public Assistance Grant 

                  Funds Awarded to City of 

           Coral Springs, Florida – Hurricane Wilma 





DA-12-15                                            April 2012

                                                                              Office oj lnsptct()r Getfiral
                                                                                                                         l
                                                                              u.s. ~p.rtmtllt ., r lIomflalld Security
                                                                              Washingtoo, DC 20S28



                                                                              Homeland
                                                                              Security
                                                               APR - 1

MEMORANDUM FOR:                         Major P. (Phil) May
                                        Regional Admini strator, Region IV
                                        F ede~al Emergg
                                                      ' ;an;              eme,nt ~gency           .

FROM:                                   D. MIchael Bear       ./-          ~
                                                                       ,k..----"
                                        Assistant lnspe r Gener?
                                        Office of Emergency Management Oversight

SUBJECT:                                FEMA Public Assistance Grant Funds Awarded Lo
                                        City o/Coral Springs, Florida - Hurricane Wilma
                                        FEMA Disaster Number 1609-DR-FL
                                        Audit Report Number DA-12-1 5

We audited public ass istance funds awarded to the City of Coral Springs, Florida (City)
(FIPS Code 011-14400-00). Our audit objective was to determine whether the City accounted
for and expended Federal Emergency Management Agency (FEMA) grant funds according to
federal regulations and FEMA guidelines.

As of January 20, 20 11 , the City had received an award 0[$24.7 million from the Florida
Division of Emergency Management (State), a FEMA grantee, for damages resulting from
Hurricane Wilma, which occurred in October 2005. The award provided 100% FEMA
funding for debri s removal activities, emergency protective measures, and pennanent repairs to
buildings and facilities. The award consisted of3 1 large projects and 35 small projects.

Our review focused on $22.5 million awarded and claimed under eight large projects (see
Ex hibit, Schedule of pf(~iects Audited). We also perfomled a limited review of several other
projects for potential duplication of benefits because of insurance seUlement allocation issues
identified during the audit. The audit covered_the period from October 23 , 2005, to January 20,
201 1, during which the City received $22.5 million ofFEMA funds. At the time of our audit, the
City had submitted a final expenditure claim to the State on Project 261 5, which was reviewed
and closed out by FEMA in October 2010. The City's final expenditure cl aims for all other
projects were either cl osed or pending.

We conducted thi s perfonnance audit pursuant to the Inspector General Act of 1978, as
amended. and according to generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a


I   Federal regulations in effect at the time of the disaster set the large project threshold !It $57,500.
reasonable basis for our findings and conclusions based upon our audit objective. We believe
that the evidence obtained provides a reasonable basis for our findings and conclusions based
upon our audit objective. We conducted this audit by applying the statutes, regulations, and
FEMA policies and guidelines in effect at the time of the disaster.

We judgmentally selected project costs (generally based on dollar value); interviewed FEMA,
State, and City officials; reviewed the City’s procurement policies and procedures; reviewed
applicable federal regulations and FEMA guidelines; and performed other procedures considered
necessary to accomplish our objective. We did not assess the adequacy of the City’s internal
controls applicable to grant activities because it was not necessary to accomplish our audit
objective. However, we gained an understanding of the City’s method of accounting for
disaster-related costs and its policies and procedures for administering activities provided for
under the FEMA award.


                                    RESULTS OF AUDIT

The City accounted for project expenditures on a project-by-project basis as required by federal
regulation. However, we identified $5,271,525 of questioned costs, consisting of $1,573,592 of
costs that were covered by insurance and $3,697,933 of costs that were unsupported, duplicate,
unreasonable, and ineligible. Additionally, the City did not always comply with FEMA
guidelines on the use of time-and-materials contracts.

Finding A: Costs Covered by Insurance

The City’s claim under multiple permanent repair projects included $1,573,592 of costs that
were covered by insurance. According to Section 312 of the Robert T. Stafford Disaster Relief
and Emergency Assistance Act, as amended, FEMA funds cannot be used for expenditures
recoverable from another federal program, insurance, or any other source. Also, 44 CFR
206.250(c) requires that actual and anticipated insurance recoveries be deducted from otherwise
eligible costs.

At the time of our fieldwork, FEMA had not completed an insurance review to determine insured
losses because the City did not have a final settlement of its claims from its insurance carrier.
We reviewed the City’s insurance policy, which included a detailed Schedule of Properties
insured. The Schedule identified the location, building number, address, occupancy,
construction structure, and building and personal limit coverage for insured facilities. Based on
our analysis of the City’s claim, insurance policy, and scopes of work authorized under all
projects, we identified $1,984,692 of costs covered by insurance.

At the exit conference, City officials provided us with documentation showing receipt of
$386,000 of insurance proceeds, and the results of a FEMA insurance review that had been
completed subsequent to our fieldwork. In the insurance review, FEMA determined that
$1,462,581 of project costs were covered by the City’s insurance policy. We reviewed FEMA’s
analysis and related documentation and agreed to accept FEMA’s determination on $1,462,581
of the costs. However, for Project 3360, the City had not claimed $2,642 of costs that FEMA

                                                2

had determined was covered by insurance during its review. In addition, FEMA did not identify
$113,653 of costs covered by insurance under Project 7197. Based on this analysis, we concluded
that the City’s claim included $1,573,592 ($1,462,581 less $2,642 plus $113,653) of costs
covered by insurance. FEMA had not taken action to reduce eligible project costs by $1,573,592
at the conclusion of our audit. Therefore, we question the $1,573,592, as shown in table 1.

                          Table 1. Damages Covered by Insurance
          Project                                                              Amount
          Number                      Description of Damages                  Questioned
           2185          Fire Station Repairs                                     $9,111
           2276          School Sign Damage                                         7,700
           2890          City Buildings A/C Repairs                               11,304
           5160          City Buildings Security Camera Repairs                   10,993
           5543          Police and Gun Range Building Repairs                    58,412
           7002          Citywide Roof Damages                                   110,542
           7504          Repairs to Charter School and Center for the Arts        27,414
           1129          North Community Park Light Fixtures Repairs             757,152
           2249          Sports Complex Scoreboards Repairs                       53,853
           2257          Sportsplex Athletic Complex Repairs                      45,000
           3343          Aquatic Center Repairs                                  193,587
           3360          Tennis Center Repairs                                    40,696
           5938          North Community Park Canopy Repairs                        6,150
           6747          Multiple Parks Light Fixtures Repairs                    12,855
           7197          Parks and Recreation Fences Repairs                     113,653
           7357          Parks and Recreation Roof Repairs                       110,062
           7644          Multiple Parks Light Fixtures Repairs                      5,108
           Total                                                               $1,573,592

Finding B: Unsupported and Duplicate Debris Removal Costs

The City’s claim under debris removal Project 2615 included $2,336,953 of unsupported and
duplicated charges. We question the $2,336,953, as follows:

   •	 Unsupported Charges. The City claimed $10,976,048 of project costs for a contractor to
      remove debris, but had adequate documentation to support project activities totaling only
      $9,476,048, or $1.5 million less than the amount claimed. Cost principles at 2 CFR 225,
      Cost Principles for State, Local, and Indian Tribal Governments, Appendix A, Section
      C.1.j, state that a cost must be adequately documented to be allowable under federal
      awards.

       The unsupported charges occurred because the City made advance payments to the
       contractor, but did not allocate the payments to specific invoices showing debris removal
       activities. The City later used the $1.5 million of advance payments when it performed a

                                               3

          reconciliation of costs paid to the contractor, and asked that we tie the $1.5 million to
          invoices totaling $2,058,369 that the City did not claim to FEMA under the project.
          These charges consisted of $1,179,125 (Invoices 5-11324 and 5-11325) for the removal
          of leaning trees and hanging branches and $879,244 (Invoices 5-11341 and 5-11342) for
          debris removal activities that had not been approved by FEMA.

      •	 Duplicate Charges. The City’s claim included $836,953 of duplicate charges. The
         duplicate charges included (1) $671,871 paid twice to the contractor, once under separate
         billings and again as part of a $1.3 million settlement paid to the contractor as a result of
         legal mediation; and (2) $165,082 claimed and paid twice, once in a cash draw amount
         for several invoices, and again as separate payments to the contractor.

City officials said that they mistakenly failed to claim the $2,058,369 of invoices for debris
activities (Finding B.1) to FEMA during project closeout in October 2010, and requested that we
net such invoices against the questioned costs. However, the authority to approve eligible
activities under the award rests with FEMA, not OIG. The City should request that FEMA
review the invoices and make an eligibility determination.

Finding C: Time-and-Materials Contract Costs

The City’s claim for debris removal activities under Project 2615 included $877,944 of
unreasonable and ineligible time-and-materials contract costs. Federal regulation 44 CFR 13.36
(b)(10) allows a grant recipient to use time-and-materials contracts only after a determination has
been made that no other form of contracting is suitable and with a contract ceiling price that the
contractor exceeds at its own risk. FEMA guidelines 2 generally limit time-and-materials contracts
to a maximum of 70 hours of actual emergency debris clearance. In addition, 2 CFR 225,
Appendix A, subsection C.1, requires that a cost be necessary and reasonable to be allowable
under a federal award.

      •	 The City claimed $493,901 for a debris removal contractor to remove 18,403.8 cubic
         yards of mixed debris (vegetative and construction and demolition (C&D)) placed in bags
         by citizens. The claim, which was based on a time-and-materials rate of $225 per hour,
         included charges for work performed beyond FEMA’s 70-hour permissible limit. In
         addition, the contract terms stipulated that C&D and mixed debris would be charged at a
         rate of $3 to $8 per cubic yard (based on mileage to the disposal site) instead of the time­
         and-materials rate paid to the contractor. Applying the highest cubic yard rate of $8 to
         the 18,403.8 cubic yards of debris collected, we concluded that the City should not have
         claimed more than $147,230 for the contract work. Therefore, we question $346,671
         ($493,901 less $147,230) of the costs as unreasonable.

          City officials said that the contractor was paid on a time-and-materials basis because it
          was inefficient for the contractor to pick up the bags with machinery. However, we
          disagree. The contractor often used mechanically loaded trailers and self-loaders to pick
          up the bags. The contractor sporadically used hand-loaded trailers. Further, federal

2
    FEMA Publication 325, Debris Management Guide, April 1999.

                                                      4

       regulations and FEMA guidelines place restrictions on the use of time-and-materials
       contracting because it does not encourage effective cost controls.

   •	 The City claimed $53,054 for its garbage collection contractor to remove 521 tons of
      mixed debris placed in bags by citizens for curbside pickup based on an hourly rate of
      $175. The work was performed from November 13 to November 20, 2005, which
      extended beyond FEMA’s 70-hour permissible limit for time-and-materials contract
      work. The City did not establish a cubic yard rate with this contractor. However, the
      City’s contract with a debris removal contractor that performed similar work (as
      described in the previous paragraph) stipulated that such debris would be charged at $3 to
      $8 per cubic yard. Using the tons to cubic yards conversion factor listed in FEMA’s Job
      Aid 9580.1, the 521 tons of debris converts to 1,042 cubic yards. Applying the highest
      cubic yard rate of $8 to the estimated 1,042 cubic yards of debris collected, we concluded
      that reasonable costs for such activity was $8,336, which is $44,718 less than the amount
      claimed. Therefore, we question the $44,718 of unreasonable costs.

   •	 The City claimed $486,555 of time-and-materials charges for a debris removal contractor
      to cut and stack debris to clear sidewalks and bike paths adjacent to school routes to
      facilitate school openings. The stacked debris was later removed. However, the contract
      terms required the contractor to remove debris by making multiple scheduled passes at a
      site, location, or area impacted by the event, billing the City for such activity at cubic
      yard rates.

       City officials said they decided to pay the contractor to first cut and stack the debris on a
       time-and-materials basis because of health and safety concerns expressed by citizens.
       They also said that debris removal contractors had not completed a first pass around the
       City; therefore, they were unable to come to the area within a reasonable timeframe to
       remove the debris. The officials submitted email requests from citizens as documentation
       of the public health and safety threat posed by the debris. However, the emails do not
       establish an immediate public health and safety threat. Such determination should be
       made by a City health and safety inspector or similar official. Further, the City provided
       no evidence that FEMA made a field inspection to evaluate the necessity of the work
       where these areas were cleared. Therefore, we question the $486,555 of time-and­
       materials charges.

Subsequent to the exit conference, City officials presented a cost analysis which they believed
demonstrated that the time-and-materials charges should not be questioned because the total costs
paid to the contractors were reasonable when considering the total quantity of debris collected.
The analysis calculated a per cubic yard rate by dividing the total costs (unit price and time-and­
material) paid to the debris contractors by the total cubic yards of debris collected by the
contractors. The City then compared this calculated “per cubic yard rate” with cubic yard rates
paid by neighboring municipalities. However, we did not accept the comparison because the
methodology does take into consideration that the total cost paid to the contractors would have
been less, as shown by our finding, had the City followed federal regulations, FEMA guidelines,
and the pricing structure of the contracts. Therefore, our position remains unchanged.


                                                 5

Finding D: Ineligible Project Costs

The City’s claim included $311,144 of ineligible project costs.

   •	 The City claimed $523,814 ($335,554 under Project 3027 and $188,260 under Project
      2615) for debris, tree, and stump removal on vacant land known as Butler Farms. Prior
      to our fieldwork, a FEMA inspector determined that 50% of the trees and debris in tract
      K and 41.5% of trees in the south tract were ineligible for FEMA funding. However, the
      City’s claim had not been reduced for the ineligible costs. We question the $203,829
      claimed for the ineligible activities, as shown in table 2.

                                  Table 2. Ineligible Project Costs
                      Percentage       Project        Project       Amount
                       Ineligible       3027           2615       Questioned
                          50%            $88,119       $94,130       $182,249
                         41.5%           $21,580              $0      $21,580
                         Total         $109,699        $94,130       $203,829

   •	 The City claimed $29,315 of contract charges under Project 3027 for the restoration of a
      canal. However, according to a City official, the City did not own the canal and no work
      was performed. The cost was included in the claim because the City failed to identify the
      ineligible charges during its review of contractor invoices. We question the $29,315.

   •	 The City claimed $78,000 under Project 3027 for the extraction and removal of standing
      trees that it said posed a public safety hazard. A City official told us that the standing
      trees were removed after their hazardous nature was discussed in a meeting with the
      contractor. However, FEMA never inspected the standing trees, and the City could not
      provide evidence that FEMA authorized their removal. Further, the City did not have
      documentation such as an engineering report or a comparable document from a qualified
      arborist to indicate the hazardous nature of the trees. FEMA’s Public Assistance Guide
      (FEMA 322, October 1999, page 47) states that stump and tree removal is not eligible for
      FEMA funding unless there is determined to be a public safety hazard. Therefore, we
      question the $78,000.

Finding E: Eligibility of Project Costs

The City’s claim included $171,892 for debris removal activities that FEMA had not determined
to be eligible when the project was closed out in October 2010. Under Project 2615, the City
claimed a $1.3 million payment made to a contractor that hauled mulch. The payment resulted
from a settlement agreement arising from legal mediation with the contractor. In our review of
supporting documentation for the payment, we identified two invoices (Invoices 5-11341 and 5­
11342) totaling $171,892, which were for activities that FEMA had not reviewed and made an
eligibility determination on during the closeout process. Therefore, we question the $171,892.




                                                6

                                    RECOMMENDATIONS


We recommend that the Regional Administrator, FEMA Region IV:


      Recommendation #1: Disallow $1,573,592 of ineligible costs claimed for activities covered
      by insurance (finding A).

      Recommendation #2: Disallow $1.5 million of debris removal charges that were not

      adequately supported (finding B).


      Recommendation #3: Disallow $836,953 of ineligible duplicate debris removal charges
      (finding B).

      Recommendation #4: Disallow $877,944 of ineligible time-and-materials debris removal
      charges (finding C).

      Recommendation #5: Disallow $311,144 of ineligible project costs (finding D).

      Recommendation #6: Disallow $171,892 of project costs that had not been determined to
      be eligible for reimbursement by FEMA (finding E).


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with FEMA, City, and State officials during the course of our
audit. We also provided written summaries of our findings and recommendations in advance to
these officials and discussed them at an exit conference on September 7, 2011. FEMA, City, and
State officials withheld comments pending receipt of the final report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until your response is received and evaluated, the recommendations will be
considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of
our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post the report on our
website for public dissemination. Significant contributors to this report were David Kimble,
Felipe Pubillones, Helen White, and Carlos Aviles.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
David Kimble at (404) 832-6702.

cc:      Administrator, FEMA

                                                7

Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-11-024)
Audit Liaison, DHS




                                    8

                                                                                                  EXHIBIT

                                          Schedule of Audited Projects

                                      October 23, 2005, to January 20, 2011

                                         City of Coral Springs, Florida

                                      FEMA Disaster Number DR-1609-FL



                     Project                   Amount                  Amount             Amount
                    Number                     Awarded            Claimed/Reviewed       Questioned
                      2615                    $16,418,506               $16,418,506       $3,480,919
                      3002                      3,257,051                  3,257,051
                      3027                        335,554                    335,554         217,014
                      5945                        725,411                    725,411
                      7162                        359,584                    359,584
                      7358                        766,542                    766,542
                      7506                        404,247                    404,247
                      3364                        204,865                    204,865
             Projects Covered by
                                                                                          $1,573,592
             Insurance 3
             Total                            $22,471,760                  $22,471,760    $5,271,525




3
    Table 1 in finding A lists the affected projects and related questioned costs.

                                                              9
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
